2311 Douglas Street (ee Le g K riefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Bers on a tearene No, 19-518/No. 19-465

COLORADO DEPARTMENT OF STATE,
Petitioner,

v.
MICHEAL BACA, POLLY BACA AND
ROBERT NEMANICH,
Respondents
PETER BRET CHIAFALO, LEVI JENNET GUERRA
AND ESTHER VIRGINIA JOHN,
Petitioners,

v.
STATE OF WASHINGTON,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of April, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR SOUTH DAKOTA AND 44 STATES AND THE
DISTRICT OF COLUMBIA AS AMICI CURIAE IN SUPPORT OF COLORADO AND WASHINGTON in the above

entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JASON R. RAVNSBORG,
South Dakota Attorney General
PAUL S. SWEDLUND,
Assistant Attorney General
Counsel of Record
OFFICE OF THE ATTORNEY GENERAL
STATE OF SOUTH DAKOTA
1302 East Highway 14, Suite |
Pierre, SD 57501-8501
Telephone: 605-773-3215
paul.swedlund@state.sd.us

Attorneys for Amici Curiae

Subscribed and sworn to before me this 8th day of April, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

tn heel Bas

Affiant 39695

      

GENERAL MOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023
Notary Public
Eric Reuel Olson
Counsel of Record
Colorado Devartment of Law, Office of the Attorney General
1300 Broadway
10th Floor
Denver. CO 80203
720-508-6548
eric.olson@coag.gov
Party name: Colorado Department of State

L. Lawrence Lessig
Counsel of Record
Eaual Citizens
12 Eliot St.
Cambridge. MA 02138
617-496-1124
lessig@law.harvard.edu
Party name: Micheal Baca; Peter Bret Chiafalo, et al.

Noah Guzzo Purcell

Counsel of Record
Office of the Attornev General
1125 Washington Street, SE
Olvmpia. WA 98501
360-753-2536
noahn@atg.wa.gov
Party name: Washington
